Report No. DODIG-2012-083          May 7, 2012





   Additional Guidance and Training Needed to Improve 

    Afghan National Army Pharmaceutical Distribution

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ANA                           Afghan National Army
ANSF                          Afghanistan National Security Forces
AT&L                          Acquisition, Technology, and Logistics
CSTC-A                        Combined Security Transition Command-Afghanistan
LOGCOM                        Logistics Command
MEDCOM                        Medical Command
MeS                           Mazar-e-Sharif
MoD                           Ministry of Defense
NMH                           National Military Hospital
NSD                           National Supply Depot
NTM-A                         North Atlantic Treaty Organization Training Mission-
                                Afghanistan
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                               May 7, 2012

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, NATO TRAINING MISSION-
                 AFGHANISTAN/COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, U.S. FORCES-AFGHANISTAN

SUBJECT: 	Additional Guidance and Training Needed to Improve Afghan National
          Army Pharmaceutical Distribution (Report No. DODIG-2012-083)

We are providing this report for review and comment. We considered management
comments on a draft of this report from North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We
received comments from the Command Surgeon for North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan on
recommendations made in this report. The comments on Recommendations 1, 2, 4, and 7
were responsive, and no further comments are required. The comments on
Recommendations 3, 5, and 6 were partially responsive because they did not include
either specific information about training or implementation dates for actions stated in the
comments. We request additional comments on Recommendation 3 and 5 regarding
elements included in the training and implementation guidance. We also request
comments regarding and implementation dates for the action cited in the comment to
Recommendation 6. We request additional comments on these recommendations by the
North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan Command Surgeon by June 6, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                              Amy J. Frontz
                                              Principal Asssistant Inspector General for
                                                Auditing
Report No. DODIG-2012-083 (Project No. D2011-D000JB-0240.000)                      May 7, 2012


               Results in Brief: Additional Guidance and
               Training Needed to Improve Afghan National
               Army Pharmaceutical Distribution
What We Did                                               procure pharmaceuticals and medical supplies,
                                                          delivered all of the pharmaceuticals in accordance
We conducted this audit in response to a
                                                          with contract requirements. This occurred
February 2011 assessment that we performed at
                                                          because officials did not fully document vendor
the Afghan National Army (ANA) National
                                                          evaluations during source selection.
Military Hospital (NMH), Kabul, Afghanistan, on
health care and sanitation. Our objective was to
                                                          As a result, ANA is at an increased risk that the
determine whether the pharmaceutical distribution
                                                          usage data cannot be relied upon to develop
process within the ANA health care system was
                                                          pharmaceutical requirements, and of
effective.
                                                          mismanagement, theft, and waste of U.S.-funded
                                                          pharmaceuticals. In addition, CSTC-A is at risk
What We Found                                             of not being able to transition the distribution
Although the ANA pharmaceutical distribution              process to complete ANA control.
process improved since February 2011, the
procurement, delivery, and inventory control              We commend CSTC-A and ANA officials for
processes for pharmaceuticals at medical facilities       corrective actions taken or planned in response to
and depots could be improved. Specifically,               preliminary concerns identified during the audit,
Afghan Logistics Command officials effectively            such as improving access controls, providing
received, accounted for, and prepared                     training, and issuing guidance.
pharmaceuticals for issuance to the forward
supply depots and NMH. However, of the six                What We Recommend
supply depots and medical facilities reviewed,
                                                          We recommend that the Commander, CSTC-A
      four did not have or maintain                      direct mentors to assist ANA personnel to,
       pharmaceutical accountability controls,                  develop a communication strategy and
       and                                                       training program,
      none properly used or completed all                      provide training and issuing guidance for
       Ministry of Defense forms.                                medical facilities, and
This occurred because the new distribution                      ensure AT&L officials maintain and
process was still early in its implementation.                   include sufficient documentation on
Specifically, ANA officials, in coordination with                vendor evaluation and selection process.
Combined Security Transition Command-
Afghanistan (CSTC-A), did not effectively                 Management Comments and
communicate or train all ANA personnel. In                Our Response
addition, Afghan Medical Command officials, in
                                                          We request that the Commander, CSTC-A,
coordination with CSTC-A did not develop
                                                          provide additional comments on Recommendation
procedures instructing medical facility personnel
                                                          3, 5, and 6 by June 6, 2012. Please see the
how to implement logistics guidance and how to
                                                          recommendations table on the back of this page.
collect and accurately report on pharmaceutical
usage data.

In addition, none of the 11 vendors that Afghan
Acquisition, Technology, and Logistics (AT&L)
officials selected for a $4.7 million contract to

                                                      i
Report No. DODIG-2012-083 (Project No. D2011-D000JB-0240.000)        May 7, 2012

Recommendation Table
 Management                           Recommendations     No Additional Comments
                                      Requiring Comment   Required
 Commander, Combined Security         3, 5, and 6         1, 2, 4, and 7
 Transition Command-Afghanistan


 Please provide comments by June 6, 2012.




                                            ii
Table of Contents

Introduction	                                                                     1


      Objective                                                                   1     

      Background                                                                  1     

      Logistics Policy Establishes Roles and Procedures for the ANA               2

      ANA and U.S. Forces Roles and Responsibilities                              2

      Review of Internal Controls                                                 4


Finding. ANA Pharmaceutical Distribution Process Will Not Be Effective Until 

Fully Implemented                                                              5


      ANA Procurement Process Not Fully Effective                                 6

      ANA Delivery and Inventory Control Processes Not Fully Implemented          8

      ANA Officials Need More Timely Communication and Training                  13 

      MEDCOM Did Not Develop Implementation Guidance for Medical 

        Facilities                                                               14 

      Increased Risk of Procuring Improper Quantities and Wasting 

        U.S. Funds                                                               15 

      Management Actions Taken To Improve Pharmaceutical Distribution 

        Process                                                                  15 

      Recommendation, Management Comments, and Our Response                      16 


Appendices

      A. 	Scope and Methodology                                                  20 

             Use of Computer-Processed Data                                      21 

             Prior Coverage                                                      22     

      B. MoD Decree 4.0 Forms	                                                   23 

      C. 	Medical Facilities and Depot Pharmaceuticals Nonstatistical Sample 

            Discrepancies                                                        24 


Management Comments

      North Atlantic Treaty Organization Training Mission-Afghanistan/Combined 

        Security Transition Command-Afghanistan Comments                       26 

Introduction
Objective
We conducted this audit in response to a February 2011 assessment that we performed at
the Afghan National Army (ANA) National Military Hospital (NMH), Kabul,
Afghanistan, on health care and sanitation. During the assessment, we identified
pharmaceutical accountability concerns. Subsequently, we issued Special Plans and
Operations Report No. 2011-007, “Assessment of the U.S. Department of Defense
Efforts to Develop an Effective Medical Logistics System within the Afghan National
Security Forces,” June 14, 2011, which further identified internal control weaknesses in
the pharmaceutical distribution process.
The overall objective of the audit was to determine the effectiveness of pharmaceutical
distribution within the Afghanistan National Security Forces1 (ANSF) health care system.
Specifically, we planned to evaluate the procurement2, delivery, and inventory control
processes for pharmaceuticals at ANSF medical facilities and depots. To provide more
timely and relevant results to the North Atlantic Treaty Organization Training Mission-
Afghanistan (NTM-A)/Combined Security Transition Command-Afghanistan (CSTC-A),
(referred to as CSTC-A), we revised the scope of the audit to focus only on the ANA.
See Appendix A for the audit scope, methodology, and prior coverage related to the audit
objective.

Background
The U.S. strategy in Afghanistan involved conducting operations to reduce the capability
and will of the insurgency, support ANSF growth in capacity and capability, and
facilitate governance and socio-economic improvements to provide a secure and
sustainable environment. As the ANSF demonstrates continued growth in capacity and
capability, the U.S. role will transition from one of combat to support. One support
function that the ANA must develop before taking full responsibility for their own
security is the ability to maintain their own health care system. For the ANSF to
maintain their own health care system, the ANA must be able to procure, deliver, and
maintain accountability of pharmaceuticals to support approximately 176,000 soldiers
and ensure medical units are properly staffed, trained, and equipped.




1
 ANSF is comprised of the ANA and the Afghan National Police.

2
 For procurement, the audit team only reviewed the award process that the ANA used for selecting 

pharmaceutical supply vendors. 


                                                   1

Logistics Policy Establishes Roles and Procedures for
the ANA
Afghanistan MoD Decree 4.0, “Ministry of National Defense, Office of the Assistant
Minister of Acquisition, Technology, and Logistics, Supported and Supporting Unit
Logistics Policy Support Procedures,” January 2009, establishes the roles and
responsibilities of personnel in the ANA logistics system and describes common
procedures and formats for the communication of information between the supply depots
and activities they support. Ministry of Defense (MoD) Decree 4.0 also requires the use
of standard forms to ensure stock receipt, accountability, and issuance. The five most
common forms include:

      MoD Form 1, “Warehouse Receipts and Issues”;  
      MoD Form 2, “Stock Accounting Record”; 
      MoD Form 4, “Register of Supply Actions”;  
      MoD Form 9, “Issue and Turn-in”; and  
      MoD Form 14, “Request for Materiel.”  

See Appendix B for the complete list of MoD forms used in logistics operations.

ANA and U.S. Forces Roles and Responsibilities
Identified
The CSTC-A mission is to support the Government of the Islamic Republic of
Afghanistan in generating and sustaining the ANSF and establishing the capacity for
Afghan-led security. To help accomplish part of that mission, CSTC-A provided
oversight and mentoring of the ANA pharmaceutical distribution process to include
developing requirements, procurement, storage, delivery, and use.

CSTC-A components responsible for oversight and mentoring of the pharmaceutical
distribution process included the U.S. Combined Joint Surgeon General and the U.S.
Combined Joint Logistic Support. Within U.S. Combined Joint Surgeon General,
medical mentors provided mentoring and training to their ANA medical counterparts at
the national and regional medical facilities. Within U.S. Combined Joint Logistic
Support, logistics mentors provided mentoring and training to their ANA logistics
counterparts at the national and regional supply depots (referred to as forward supply
depots).

Before June 2011, only one ANA component, Medical Command (MEDCOM), was
responsible for the pharmaceutical distribution process from requirements development
through patient care. However, because of process weaknesses, CSTC-A personnel
began working with their ANA counterparts in June 2011 to improve pharmaceutical
accountability by segregating pharmaceutical distribution responsibilities and developing
a new process. ANA components involved in the new process include MEDCOM,



                                            2

Acquisition, Technology, and Logistics (AT&L), and the Logistics Command
(LOGCOM). Figure 1 represents the ANA components and their responsibilities in the
new pharmaceutical distribution process.

                   Figure 1. ANA Components and the Flow of 

               Pharmaceuticals in the New ANA Distribution Process



                                                 Medical Facilities
                                                   Collects and
                                                  Reports Usage
                                                     Data to
                                                   MEDCOM



                    Forward
                 Supply Depots                                                      MEDCOM
                    Receives                                                         Develops
                 Pharmaceuticals                                                  Pharmaceutical
                and Distributes to                                                 Requirements
                Medical Facilities




                                                                          AT&L
                               LOGCOM
                                                                         Validates
                                 Receives
                                                                       Requirements,
                             Pharmaceuticals
                                                                         Prepares
                            and Distributes to
                                                                       Contracts, and
                               the National
                                                                         Procures
                            Military Hospital
                                                                      Pharmaceuticals
                               and Forward
                              Supply Depots

                        Source: DoD OIG

MEDCOM collects medical facilities usage data and develops pharmaceutical
requirements. Upon receipt, AT&L validates those requirements, prepares contracts, and
procures pharmaceuticals with U.S.-provided funds. LOGCOM receives the procured
pharmaceuticals at the National Supply Depot (NSD) in Kabul, Afghanistan, accounts
for, and issues pharmaceuticals to the four forward supply depots and NMH. The
forward supply depots receive, account for, and issue pharmaceuticals to the four regional
medical facilities. The medical facilities collect and report pharmaceutical usage data to
MEDCOM. See Figure 2 (page 4) for a list of the 10 locations involved in the
pharmaceutical distribution process. Regional locations 1 through 4 include both a
hospital and a supply depot.




                                                         3

        Figure 2. ANA Locations in the Pharmaceutical Distribution Process



                                        1




             2




                                                   3




                                 4



       Source: CSTC-A Briefing Charts



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the new ANA pharmaceutical distribution process. Specifically, ANA
officials, in coordination with CSTC-A, did not fully document vendor evaluations
during the source selection process. In addition, ANA officials, in coordination with
CSTC-A, did not effectively communicate or train all personnel involved in
implementing the new distribution process. Finally, ANA officials, in coordination with
CSTC-A did not develop procedures instructing medical facilities how to implement
MoD Decree 4.0 and collect and accurately report pharmaceutical usage data. We will
provide a copy of the report to senior CSTC-A officials responsible for assisting the ANA
with developing internal controls for the new pharmaceutical distribution process.




                                            4

Finding. ANA Pharmaceutical Distribution
Process Will Not Be Effective Until
Fully Implemented
The ANA pharmaceutical distribution process improved since the February 2011
assessment, however, the procurement, delivery, and inventory control processes for
pharmaceuticals at medical facilities and depots could be improved. Specifically, none of
the 11 vendors that AT&L officials selected for a $4.7 million contract awarded in
September 2011 to procure pharmaceuticals and medical supplies were able to deliver all
of the pharmaceuticals in accordance with contract requirements. This occurred because
although, AT&L officials, in coordination with CSTC-A, implemented source selection
procedures to verify the vendor’s ability to meet contract requirements, they did not fully
document vendor evaluations.

In addition, LOGCOM officials effectively received, accounted for, and prepared
Afghan-procured pharmaceuticals for issuance to the forward supply depots and NMH,
however, of the six supply depots and medical facilities reviewed,
   	 four did not have or maintain pharmaceutical accountability controls, and 

      inventory discrepancies ranged from 1 to more than 92,000 items, and 

   	 none properly used or completed all MoD forms designated for maintaining
      pharmaceutical acountabilty, in accordance with MoD Decree 4.0. 

This occurred because the new distribution process was still early in its implementation.
Specifically, ANA officials, in coordination with CSTC-A, did not effectively
communicate or train all ANA personnel at the forward supply depots and medical
facilities on the changes to the pharmaceutical distribution process. Also, MEDCOM
officials, in coordination with CSTC-A did not develop adequate guidance directing
medical facilities on how to implement MoD Decree 4.0 or how to collect and report on
pharmaceutical usage data.

As a result, ANA is at an increased risk that the usage data cannot be relied upon to
develop accurate pharmaceutical requirements, and of mismanagement, theft, and waste
of U.S. funded-pharmaceuticals. In addition, CSTC-A is at risk of not being able to
transition the pharmaceutical distribution process to complete ANA control.

In October 2011, we notified CSTC-A officials of preliminary concerns identified during
fieldwork. In response to those concerns, CSTC-A and ANA officials provided
responses on actions taken or planned, such as improving access controls, providing
additional training, and developing policies. See Management Actions Taken to Improve
the Pharmaceutical Distribution Process on page 15 for more information.




                                            5

ANA Procurement Process Not Fully Effective
As part of the new distribution process, ANA conducted its first procurement of
pharmaceuticals and medical supplies. Specifically, ANA officials validated
pharmaceutical requirements, developed the contract terms and conditions, and obtained
vendor qualifications. However, none of the vendors were able to deliver all of the
pharmaceuticals in accordance with contract terms and conditions and ANA officials
could not provide documentation to verify whether the vendors were evaluated based on
their ability to meet those terms and conditions.

ANA-Awarded First Contract for Pharmaceuticals Under New
Process
From June 2011 to September 2011, medical mentors worked with ANA officials to
create the first pharmaceutical requirements list and on September 13, 2011, ANA
conducted its first procurement of pharmaceuticals. Specifically, AT&L officials
awarded a $4.7 million contract for 518 line items, consisting of 269 pharmaceuticals and
249 medical supplies to 11 vendors. While we did not observe the contract award
process, we obtained written procedures, conducted interviews with ANA officials and
logistics mentors, and reviewed supporting documentation when available. Written
procedures required that AT&L officials validate3 pharmaceutical requirements, prepare
contract terms and conditions, and assess potential vendors during the source selection
process.

AT&L officials validated pharmaceutical requirements and developed the contract terms
and conditions. Using MEDCOM recommendations on the pharmaceutical types and
quantities to procure, AT&L developed a procurement package for the required
pharmaceuticals. The request for proposal and contract terms and conditions included a
delivery schedule, a requirement that pharmaceuticals have an expiration date of at least
12 to 18 months from the date of delivery, and a requirement that the pharmaceutical be
delivered with the proper quality control documentation. Upon receipt of vendor-
provided proposals, AT&L officials collected and reviewed vendor’s qualifications
during the source selection process. Of the 16 vendor-provided proposals received,
AT&L officials recommended 11 for contract award.

Vendors Unable to Deliver Required Pharmaceuticals
None of the 11 vendors were able to deliver all of the pharmaceuticals in accordance with
the contract terms and conditions. The contract required that the vendors be able to
deliver 40 percent of the items within 2 months; another 30 percent within 3 months; and




3
    AT&L validates that pharmaceuticals requested are on the official requirements list.

                                                       6

the remaining 30 percent within 4 months of contract award. As of November 27, 2011,
vendors only delivered 122 of 518 (or 23.6 percent) of the required line items to the NSD.
                                     Although the expiration and quality control
     As of November 27, 2011,        documentation required were included in both the
   vendors only delivered 122 of     request for proposal and the contract, CSTC-A and
    518 (or 23.6 percent) of the     ANA officials stated that some of the vendors could
  required line items to the NSD. not meet those requirements upon delivery because
                                     those requirements were not yet included in the
vendor’s supplier contracts. When AT&L officials still did not receive the required
pharmaceuticals after communicating with the vendors, AT&L officials imposed
monetary penalties4 in the amount of 2,228,201 Afghanis ($46,582).5 The following
table lists the number of items required to be delivered by each vendor, number of items
delivered, and monetary penalties assessed as of November 27, 2011.

                    Table. Number of Items Required and Delivered 

                  With Penalty Amounts by Vendor as of November 2011 


                      Vendor           Items             Items          Penalty
                                     Required           Delivered       Amounts
                                     to Deliver
                          1             132                27            $4,725
                          2               11               8              $181
                          3               57               20            $5,671
                          4               70               34            $18,785
                          5               94               30             $6,823
                          6                8                3             $1,395
                          7               23                0             $2,659
                         8                8                 0             $124
                          9               19                0            $1,381
                         10               13                0            $1,604
                         11               83                0            $3,234
                       Total             518              122            $46,582
                   Source: CSTC-A




4
  The November 2011 penalties were for 1 percent of each vendor’s contract award amount for the 2 week
delay. AT&L officials assessed vendor penalties using an amount of 0.1 percent per day (0.5 percent for
each week of delay).
5
  All U.S. dollar amounts were converted from Afghanistan Afghani using www.eXchangeRate.com
currency converter. The above totals reflect the currency exchange rate as of November 27, 2011.

                                                   7

AT&L Could Not Provide Documentation to Adequately Support
the Source Selection Process
AT&L officials also could not provide documentation to verify the adequacy of the
source selection process. Afghan written procedures require that vendors demonstrate
that they meet certain qualifications and require the Bid Evaluation Committee to prepare
a report clearly demonstrating the advantages and disadvantages of each vendor. We
nonstatistically selected and reviewed 2 of the 11 vendors proposals provided to the bid
evaluation committee. The vendor proposals reviewed included documentation, such as
tax records; licenses to distribute pharmaceuticals; and proof of proper storage, space,
and equipment. Further review of the proposals verified that vendors provided
supporting documentation to meet certain qualification requirements, such as financial
resources, equipment, and other physical facilities. However, the committee’s summary
report recommending the 11 vendors for contract award did not provide detailed
information as to how the vendors were evaluated or rationale for selecting each vendor.
Specifically, the summary report did not include whether the evaluations included an
assessment of the vendor’s ability to meet the expiration requirements or provide quality
control documentation for each pharmaceutical. When asked whether an evaluation
report for each vendor was prepared, an AT&L official stated that if there are concerns on
vendor qualifications, all of the vendor supporting documentation is maintained on file.
A CSTC-A official later confirmed that because the new distribution process is still early
in its implementation, the bid evaluation committee did not implement all procedures,
such as preparing an evaluation report for each vendor.

According to a CSTC-A official, AT&L imposed stringent requirements in its first
procurement of pharmaceuticals and medical supplies that vendors could not meet
because vendors did not include those requirements in their subcontracts with suppliers.
Specifically, vendors could not meet requirements such as 18 month shelf life, providing
customs documentation validating the country of origin, and World Health Organization
documentation for pharmaceuticals. He explained that pharmaceutical manufactures for
example, produce some pharmaceuticals that only have a 12 month shelf life and vendors
therefore could not deliver them with an 18 month shelf life. On December 18, 2011,
AT&L officials, in coordination with the logistics mentors, issued a contract modification
to allow for more flexibility in the expiration and quality control documentation required
for the vendors to deliver pharmaceuticals without incurring additional monetary
penalties. CSTC-A mentors should assist AT&L officials, to improve the vendor
selection and evaluation process. Specifically, they should ensure AT&L officials
conduct a thorough review of the proposals to increase assurance that vendors have the
ability to meet the terms and conditions, maintain sufficient documentation on how each
vendor was evaluated, and document their rationale for selection in accordance with
written procedures.

ANA Delivery and Inventory Control Processes Not Fully
Implemented
The ANA effectively implemented the new distribution process at the NSD, but the
process is not fully implemented at the forward supply depots and medical facilities.

                                            8

Specifically, LOGCOM officials received Afghan-procured pharmaceuticals into the
NSD inventory and properly accounted for and prepared pharmaceuticals for issuance to
the forward supply depots and NMH. However, not all of the forward supply depots and
medical facilities had adequate inventory controls in place to maintain pharmaceutical
accountability and properly used MoD forms in accordance with MoD Decree 4.0.

LOGCOM Properly Received Pharmaceuticals at NSD
LOGCOM officials received pharmaceuticals into the NSD inventory in accordance with
written procedures and MoD Decree 4.0. In September 2011, LOGCOM officials at the
NSD received the first Afghan-procured pharmaceutical shipment. According to those
interviewed, the joint team of MEDCOM, AT&L, and LOGCOM officials inspected the
pharmaceutical quantity, type, and quality received and verified that the pharmaceuticals
received met the contract requirements. For example, during the inspection, officials
stated that they identified and rejected pharmaceuticals with expiration dates that did not
meet the contract terms and conditions. During a subsequent pharmaceutical shipment,
the audit team verified compliance with pharmaceutical receiving procedures and
confirmed with the CSTC-A mentor that ANA personnel had applied those
pharmaceutical procedures to a previous shipment. Additionally, during site visits we
verified LOGCOM officials accepted pharmaceuticals into their inventory in accordance
with MoD Decree 4.0. For example, they completed MoD Form 1, “Warehouse Receipts
and Issues,” which records the physical movement of materiel in and out of the depot.
LOGCOM officials also completed MoD Form 2, “Stock Accounting Record,” which
records increases and decreases to stocks on hand, and can be used to assist in predicting
the necessary stock levels to satisfy demands.

LOGCOM Maintained Inventory Accountability at NSD
LOGCOM officials properly accounted for pharmaceuticals in accordance with
MoD Decree 4.0. On September 27, 2011, we nonstatistically selected
22 of 170 pharmaceuticals items on hand at the NSD to verify inventory accountability.
Of the 11 items selected to verify whether the property record was complete and accurate,
we counted items from the inventory on hand and traced those items to the applicable
MoD Form 2, “Stock Accounting Record.” Of the remaining 11 items selected to verify
the accuracy of the inventory on hand, we traced the quantity of each item on the
MoD Form 2 to its physical location. Of the total 22 items reviewed, we noted no
discrepancies.

To reduce the likelihood of theft and abuse, LOGCOM officials also implemented access
controls depending on the type of pharmaceutical. For example, refrigerated
pharmaceuticals were maintained in a locked, temperature controlled room; controlled
nonrefrigerated pharmaceuticals, such as narcotics, were maintained in an access
controlled room with double locked doors; and noncontrolled pharmaceuticals were
maintained in the general warehouse. Figure 3 (page 10) shows the general warehouse
organization of noncontrolled pharmaceuticals and consumables. NSD also maintained
an authorized personnel list outside each area to include the individual’s name and
picture.


                                             9

                Figure 3. National Supply Depot General Warehouse




                   Source: DoD OIG

LOGCOM Effectively Prepared Pharmaceuticals for Issuance
at NSD
LOGCOM officials effectively prepared pharmaceuticals for issuance. On
September 27, 2011, we observed LOGCOM officials prepare a pharmaceutical shipment
for issuance to a local ANA unit. Upon receipt of a MoD Form 14, “Request for
Materiel,” LOGCOM officials stated that they filled the request based on the inventory
on hand. LOGCOM officials provided copies of both the MoD Form 14, and the MoD
Form 9, “Issue and Turn In,” to the authorized official designated to receive the
pharmaceuticals. ANA unit personnel accepting the shipment also had the required gate
pass for authorization to exit the NSD in accordance with stated procedures. Figure 4
shows the local ANA unit accepting a shipment of pharmaceuticals from the NSD.

            Figure 4. Afghan National Army Unit Accepting a Shipment
                of Pharmaceuticals From the National Supply Depot




                    Source: DoD OIG



                                         10 

Controls Not in Place to Maintain Pharmaceutical Accountability
at All Supply Depots and Medical Facilities
Four of the six supply depots and medical facilities reviewed did not properly account for
pharmaceuticals. During September and October 2011 the audit team nonstatistically
selected various types of pharmaceuticals on hand to verify whether the supply depots
and medical facilities maintained proper inventory accountability in accordance with
MoD Decree 4.0. Of the 112 items selected to verify whether the property records were
complete and accurate, we counted 56 items from the inventory on hand and traced those
items to the applicable documentation the facility maintained for pharmaceutical
accountability to test completeness. Of the 56 items selected to verify the accuracy of the
inventory on hand, we traced the quantity of each item on the applicable documentation
the facility maintained to its physical location.6

With the exception of NSD and the Mazar-e-Sharif (MeS) forward supply depot, the
remaining sites did not maintain an accurate inventory. For example, of the 32 line items
(16 each for completeness and accuracy testing), we nonstatistically selected at Kandahar
and MeS medical facilities to verify proper inventory accountability, 24 line items had
discrepancies.7 The differences in the amount of the items documented on record and the
actual amount on the floor at the two medical facilities ranged from 1 to more than
20,000 units. For example, the Kandahar Regional Hospital had 20,772 less units of
Amoxicilline on the floor than listed on record and 328 less viles of morphine on the
floor than listed on record.

The audit team did not fully complete inventory testing at the remaining two sites, NMH
and the Kandahar forward supply depot, because of the inability of ANA officials to
provide consistent and reliable inventory data. For example, the audit team could not
verify the accuracy of the inventory on hand at NMH because the dispensing
documentation was not reconciled to the stock accounting record. However, for the
14 items selected to verify whether the property record was complete and accurate, 6 had
discrepancies. For those 6 items, the differences in the amount documented on record
and the actual amount on the floor ranged from 6 to over 200 units. Additionally, at the
Kandahar forward supply depot, personnel took approximately 35 minutes to locate the
first pharmaceutical selected for testing and then calculated the pharmaceutical quantities
on hand using a variety of different documents. Following the review of the first item, it
took approximately 2 hours for the depot staff to locate and complete the review of the
next four items selected. Upon identifying discrepancies with these first five items and
because the amount of time it took the depot staff to locate any given item, the audit team
discontinued further testing. For those 5 items, the differences in the amount documented
on record and the actual amount on the floor ranged from 100 to more than 92,000.
Two of the six supply depots and medical facilities also did not have adequate access
controls in place for controlled pharmaceuticals although those pharmaceuticals are more
likely to be susceptible to abuse and theft. ANA written procedures state that controlled


6
    See Appendix A for further discussion of the nonstatistical testing conducted.
7
    See Appendix C for a list of discrepancies found at each site.

                                                      11 

substances susceptible to abuse should be kept in a separate locked store. However,
ANA officials at the Kandahar Regional Hospital left controlled pharmaceuticals, such as
morphine, unattended and unsecured and did not properly secure the entry door where
those pharmaceuticals were stored. In addition, at both NMH and Kandahar Regional
Hospital, controlled pharmaceuticals were not secured separately from uncontrolled
pharmaceuticals.

Need to Properly Use MoD Forms to Account for
Pharmaceuticals
None of the six supply depots and medical facilities properly used or completed all MoD
forms in accordance with MoD Decree 4.0. For example,

   	 ANA personnel at the forward supply depots and all three medical facilities did
      not adequately use MoD Form 2 to account for pharmaceuticals inventory.
      For example, at the MeS medical facility personnel only tracked equipment on
      MoD Form 2. MoD Decree 4.0 states that MoD Form 2 should be used to record
      increases and decreases to stocks on hand, predict necessary stock levels to satisfy
      demands, establish the balance on hand, and record stock identification data for
      purposes of accountability, issue, and ordering.
   	 ANA personnel at both forward supply depots used MoD Form 4 to track their
      MoD Form 14 issues and turn ins, and MoD Form 9 requests for materiel, but did
      not include specific information for each pharmaceutical. For example, the MeS
      supply depot did not include the pharmaceutical quantities on the MoD Form 4,
      instead they only noted the number of pages from the MoD Form 9 and
      MoD Form 14. MoD Decree 4.0 states that MoD Form 4 should contain the
      unique document number and quantities requested, received, and issued as
      indicated on the MoD Form 14 and MoD Form 9 received and issued.
   	 None of the ANA personnel at the supply depots and medical facilities used
      MoD Form 1298, “Due-Out Log,” and MoD Form 1299, “Due-In Log.”
      MoD Decree 4.0 states that MoD Form 1298 is used to establish a record of
      materiel owed to a supported unit until all requests are completely filled while
      MoD Form 1299 is used to record the authorized stockage list and request actions
      other than stock replenishment that have not been totally received. Instead of
      using those forms, the supply depots included a note on the MoD Form 14, stating
      the amount of the request that could not be filled. While placing a note on the
      MoD Form 14 as a substitute for using the MoD Form 1298 is not in accordance
      with MoD Decree 4.0, the use of notations on the MoD Form 14 to document
      unfilled pharmaceuticals met the intent of the MoD Form 1298. Specifically, it
      clearly communicated to the customer the quantity and type of pharmaceuticals
      not provided.

ANA Depots and Medical Facilities Used Unique Processes
ANA officials at the six supply depots and medical facilities also used unique processes
for pharmaceutical inventory accountability. Some of the processes were used with


                                           12 

MoD Decree 4.0 forms to enhance inventory accountability while other processes were
used in lieu of MoD Decree 4.0 forms.
Two of the three supply depots reviewed used processes to supplement and enhance
inventory accountability. Specifically, NSD officials developed a MoD Form 9 logbook
to more closely track orders issued to customers and MeS forward supply depot officials
developed stock level cards to keep better accountability of the stock on hand for each
bin containing pharmaceuticals. However, the Kandahar forward supply depot and
medical facility officials used other processes, such as spreadsheets, and
MoD Forms 56 and 59, not included in MoD Decree 4.0.8 In addition, some of the ANA
officials inconsistently used MoD forms to track pharmaceutical usage and dispensing
data. For example, MeS medical facility officials used MoD Forms 58 and 59 and tally
charts, while Kandahar medical facility personnel used MoD Forms 56, 59, and
spreadsheets. Since MEDCOM officials use MoD forms for determining pharmaceutical
requirements, the consistent and proper use of forms is imperative to obtaining accurate
and reliable data.

ANA Officials Need More Timely Communication and
Training
With the new pharmaceutical distribution process still early in its implementation,
ANA officials, in coordination with CSTC-A, did not effectively communicate or train all
ANA personnel at the forward supply depots and medical facilities on the changes to the
pharmaceutical distribution process. From June 2011 to September 2011, CSTC-A and
ANA officials began implementing the new distribution process at the NSD. CSTC-A
officials stated that their strategy was to focus on implementing and obtaining Afghan
buy-in of the new process at the NSD before fully implementing the process at NMH,
forward supply depots, and regional medical facilities. However, obtaining buy-in from
those components most affected by the previous system where pharmaceuticals were
unavailable or unaccounted for, is equally important to ensure the success of the new
distribution process. Given that CSTC-A officials focused their efforts on implementing
training at NSD, CSTC-A and ANA officials effectively communicated and trained NSD
personnel. During our interviews, ANA officials at the NSD demonstrated (1) a thorough
knowledge of the new pharmaceutical process, (2) an understanding of the proper use of
MoD forms, and (3) that the new distribution process was effective in maintaining
pharmaceutical accountability. NSD officials also provided records that their personnel
completed comprehensive training on the new distribution process.

However, CSTC-A and ANA officials did not effectively communicate or train forward
                                  supply depot or medical facilities personnel.
   …CSTC-A and ANA officials
                                  During our interviews, forward supply depots and
  did not effectively communicate
                                  medical facilities officials were unable to
 or train forward supply depot or
                                  demonstrate the same level of understanding as the
    medical facilities personnel.
                                  NSD officials. For example, ANA officials at MeS


8
    MoD Forms 56, 58, and 59 are designated as multi-use forms that do not have a specific purpose.

                                                     13 

and Kandahar expressed their dislike for the “push”9 system and were unaware of the
new process where pharmaceuticals are requested or “pulled”10 based on need. One
ANA official referred to the old process by stating, “it would not make a difference
because if they send the requested MoD 14 for pharmaceuticals the NSD will only push
the items they want to send.” When informed ANA officials were not properly using the
MoD forms, CSTC-A officials stated that some ANA officials in the regional facilities
received comprehensive training; however, those officials are either unable or were
unwilling to adhere to MoD Decree 4.0.

Until ANA officials are fully trained on the proper use of MoD forms and CSTC-A
obtains Afghan buy-in, the new distribution process will not be fully effective, increasing
the likelihood that inventory discrepancies will continue. CSTC-A mentors should assist
ANA officials in developing a communication strategy and training program to
effectively implement the new process and obtain Afghan buy-in at the forward supply
depots and regional medical facilities. In addition, CSTC-A mentors should assist ANA
officials in providing training on the new distribution process. Specifically, CSTC-A
mentors shoud ensure that ANA officials are trained on the proper use of and rationale
for using MoD Decree forms, eliminating the need for maintaining other processes that
did not enhance pharmaceutical accountability.

MEDCOM Did Not Develop Implementation Guidance for
Medical Facilities
With the new distribution process still early in its implementation, MEDCOM officials
issued memorandums requiring medical facilities to comply with MoD Decree 4.0.
However, MEDCOM officials, in coordination with CSTC-A, did not yet develop
guidance instructing medical facility personnel how to implement MoD Decree 4.0 or
how to collect and report pharmaceutical usage data. Although MoD Decree 4.0
introduces the proper forms to use to communicate logistics information between the
supply depots and activities they support, it does not clearly specify how other entities,
such as medical facilities, are to implement MoD Decree 4.0 to properly account for,
receive, and further distribute pharmaceuticals. CSTC-A mentors should assist
MEDCOM officials to develop implementation procedures for medical facilities to
increase assurance that pharmaceuticals are properly accounted for, received, and
distributed. Once developed and fully implemented, these procedures should increase
assurance that pharmaceuticals are properly accounted for and safeguarded.

Also, MEDCOM officials, in coordination with CSTC-A did not yet develop adequate
guidance for medical facilities to collect and report pharmaceutical usage data.
MEDCOM officials issued memorandums requiring medical facilities to track daily and
monthly usage of pharmaceuticals. Additionally, MEDCOM officials issued a


9
  Under the push system, CSTC-A and MEDCOM personnel determined what pharmaceuticals were 

needed for patient care and shipped them directly to supply depots or medical facilities. 

10
   Under the pull system, pharmaceuticals are procured based on end user requirements and supply depots 

provide only the pharmaceuticals requested by the end users.


                                                   14 

memorandum to NMH requiring them to provide monthly usage reports using
MoD Form 59 to MEDCOM. However, these memorandums do not provide specific
implementation procedures to medical facilities for collecting and maintaining
pharmaceutical usage data. CSTC-A mentors should assist MEDCOM officials to ensure
that adequate guidance includes procedures on the proper use of MoD forms. Once
developed and fully implemented, this guidance should increase assurance that accurate
and reliable usage data is provided on a reoccurring basis to consistently generate
pharmaceutical requirements for procurement.

Increased Risk of Procuring Improper Quantities and
Wasting U.S. Funds
Until ANA officials, in coordination with CSTC-A, develop an effective communication
strategy and train and implement adequate controls in the distribution process, ANA is at
an increased risk of obtaining unreliable pharmaceutical usage data for requirements
development, and mismanagement, theft and waste of U.S.-funded pharmaceuticals. In
addition, CSTC-A is at risk of not being able to transition the pharmaceutical distribution
process to complete ANA control. For example, inconsistent and unreliable
pharmaceutical requirements increase the risk of procuring improper quantities of
pharmaceuticals. By procuring improper quantities of pharmaceuticals, the ANA could
waste funds procuring unnecessary pharmaceuticals or procure insufficient amounts of
pharmaceuticals needed for patient care.

Management Actions Taken To Improve Pharmaceutical
Distribution Process
In an effort to provide timely and relevant results, we notified CSTC-A in October 2011
of some of our preliminary concerns for each of the locations visited. Both CSTC-A and
ANA officials provided actions taken or planned to address those concerns.

At NMH, we provided CSTC-A officials with our concerns regarding adequate storage
space and staffing of pharmacy positions. Specifically, ANA officials stated that they
moved consumables to a separate location to allow for more storage space to further
improve pharmaceutical accountability. In addition, CSTC-A officials stated that they
are in the process of resolving the pharmacy staffing concerns with senior ANA officials.

At the regional locations, we provided CSTC-A officials with our concerns regarding
physical access controls, communication and training on use of MoD forms, and controls
over expired pharmaceuticals.11 ANA officials in Kandahar stated that they plan to
obtain a locked cabinet for controlled substances, conduct training to ensure
pharmaceuticals are secured, and separate and use expired pharmaceuticals only when
necessary. CSTC-A officials stated that although training on the MoD Decree forms was


11
  In addition to our preliminary concerns, we also highlighted best practices when identified at each
location. Best practices not previously mentioned include MeS forward supply depot officials providing
medical instrument cases to medical facilities and local ANA units picking up pharmaceuticals to reduce
the risk of damage during transport.

                                                   15 

conducted as of June 2011, they agreed to provide additional training emphasizing the
proper use of MoD forms. In addition, CSTC-A officials stated that they encouraged
ANA medical facilities personnel to secure pharmaceuticals and noted improvements
during their routine observations. Finally, CSTC-A officials stated that they plan to assist
ANA officials in developing a policy on use of near or recently expired medications.

Recommendations, Management Comments, and Our
Response
We recommend the Commander, Combined Security Transition Command-
Afghanistan, in coordination with:

1. Acquisition, Technology, and Logistics officials, improve the vendor selection and
evaluation process by ensuring a thorough review of proposals and maintaining and
including in their summary reports, sufficient documentation on how each vendor
was evaluated and selected.

NTM-A/CSTC-A Comments
The Command Surgeon, NTM-A/CSTC-A, agreed stating that the Acquisition Agency
has a Source Selection process in which they evaluate and select vendors based on
criteria set forth in their Public Procurement Law, however, there are no standard
operating procedures for documenting when they have completed the process. The
Command Surgeon further explained that NTM-A/CSTC-A will provide DoD IG a
mapped source selection process within 30 days and LOGCOM will provide a draft SOP
for documenting each source selection event for the Bid Committee within 90 days.

Our Response
Comments from the Command Surgeon comments were responsive, and no additional
comments are required.

2. Afghan National Army officials, develop a communication strategy and training
program and obtain buy-in from Forward Supply Depots and regional medical
facilities, for all components involved in the new pharmaceutical distribution
process.

NTM-A/CSTC-A Comments
The Command Surgeon agreed stating that the command mandated a logistics course for
all new advisors and MTAG groups in Gardez, Mazar-e-Sharif, and Kandahar have
taught both ANA and advisors through the courses. The Command Surgeon further
stated that CSTC-A will continue to work to formalize this training as a requirement for
all Afghan logisticians and pharmacists.

Our Response
Comments from the Command Surgeon were responsive, and no additional comments are
required.


                                            16 

3. Afghan National Army officials, provide training on the new pharmaceutical
distribution process, the proper use of the Ministry of Defense Decree 4.0 forms, and
the rationale for why the forms should be used.

NTM-A/CSTC-A Comments
The Command Surgeon agreed and referenced their comments to Recommendation 2
regarding the mandated logistics course and formal training as a requirement for all
Afghan logisticians and pharmacists.

Our Response
Comments from the Command Surgeon were partially responsive. Although the
Command Surgeon stated that CSTC-A will continue to work to formalize the training,
we also recommended that the training include the proper use of the Ministry of Defense
Decree 4.0 forms and the rationale for why the forms should be used. We request that the
Command Surgeon provide additional comments in response to the final report regarding
the elements included in the formalized training.

4. Medical Command officials, issue Ministry of Defense Decree 4.0 implementation
guidance to medical facilities to properly receive, account for, and distribute
pharmaceuticals.

NTM-A/CSTC-A Comments
The Command Surgeon agreed stating that medical advisors will continue to work with
LOGCOM and MEDCOM G-4 to create training tools for on the ground implementation.
The Command Surgeon specified that it includes training during audit visits to make sure
there is a clear understanding that the Afghans are utilizing forms as stated in Decree 4.0.
In addition, the Afghan Surgeon General issued a memorandum to all ANA hospitals
directing Afghans to follow the usage of all forms indicated in the Decree 4.0. The
Command Surgeon stated that the goal is to create a train the trainer program so it
becomes Afghan led training for sustainment.

Our Response
Comments from the Command Surgeon were responsive, and no additional comments are
required.

5. Medical Command officials, develop implementation guidance for medical
facilities to include the proper use of other Ministry of Defense forms used to collect
and report pharmaceutical usage data.

NTM-A/CSTC-A Comments
The Command Surgeon agreed, and referred to the comments on Recommendation 4
regarding creating training tools for on the ground implementation.




                                            17 

Our Response
Comments from the Command Surgeon were partially responsive. Although the
comments to Recommendation 4 discuss creating tools for on the ground implementation
and training during audit visits to make sure the Afghans are using forms as stated in
Decree 4.0, it does not discuss implementation guidance for the non-Ministry of Defense
Decree 4.0 forms which are used to collect and report pharmaceutical usage data. The
Forms 56, 58, and 59 that we discussed in the report were used to collect and report
pharmaceutical usage data; however, the Afghans did not have implementation guidance
explaining the proper use of these forms. We request that the Command Surgeon provide
additional comments in response to the final report regarding implementation guidance
for the non-Ministry of Defense Decree 4.0 forms used to collect and report
pharmaceutical usage data.

6. Afghan National Army officials, secure controlled pharmaceuticals and conduct
training to ensure personnel understand controlled pharmaceutical storage
requirements.

NTM-A/CSTC-A Comments
The Command Surgeon agreed stating that the pharmacy advisors have trained their
Afghan pharmacy counterparts on the importance of separating controlled substances and
locking them in a separate area with restricted access. The Command Surgeon stated that
these rules apply in the pharmacy and areas where controlled substances are needed
immediately, such as emergency rooms or surgery suites. The Command Surgeon further
stated that pharmacy advisors treat the storage of controlled substances as a priority issue.

Our Response
Comments from the Command Surgeon were partially responsive. Although the
Command Surgeon stated that pharmacy advisors have trained their Afghan counterparts
on the importance of separating and locking controlled substances in a separate area, the
comments did not reflect whether the Afghans implemented the controls or time frames
when controls were/will be put in place. As noted by the Command Surgeon, this is a
high priority issue due to potential for diversion. We request that the Command Surgeon
provide additional comments in response to the final report to address time frames the
training occurred and dates the controls were implemented at the Afghan facilities.

7. Afghan National Army officials, develop and implement guidance for medical
facilities on the separation and use of near or recently expired medications.

NTM-A/CSTC-A Comments
The Command Surgeon agreed stating that MEDCOM developed a revision of the
official policies for Decree 4.0 concerning the return of unused/excess items and
destruction of expired Class VIII items and included it as an attachment to the comments.
The Command Surgeon further stated that pharmacy and logistics advisors trained their
Afghan counterparts to identify and use nearly expired medications first, and separate and
earmark expired medications and medications near expiration that cannot be used in a
timely manner for destruction.

                                             18 

Our Response
Comments from the Command Surgeon were responsive, and no additional comments are
required.




                                       19 

Appendix A. Scope and Methodology
We conducted this performance audit from June 2011 through April 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our audit objective, the audit team reviewed U.S. Army, U.S. Air Force
and Afghan logistical guidance. Specifically, we reviewed Army Regulation 12-1,
“Security Assistance and International Logistics, Security Assistance, Training, and
Export Policy,” July 23, 2010; and U.S. Air Force Instruction 41-209 “Medical Logistics
Support,” June 30, 2006, to identify best practices that may be applied to the Afghan
pharmaceutical distribution process. Additionally, we reviewed Afghan MoD Decree
4.0, “Supported and Supporting Unit Logistics Policy and Support Procedures,”
January 2009, MoD Decree 4.2 , “Materiel Accountability Policy and Procedures,”
Islamic Republic of Afghanistan, “Procurement Law,” 2008 amendments made in
January 2009 incorporated; Islamic Republic of Afghanistan, Ministry of Finance, “The
Rules and Procedure for Public Procurement,” November 18, 2009; and ANA military
hospital standard operating procedures. During our audit, we interviewed CSTC-A
officials to include the U.S. Combined Joint Surgeon General, the U.S. Combined Joint
Logistic Support, Security Assistance Office, and logistics and medical mentors, who
provided oversight and training for the ANA pharmaceutical distribution process.

We conducted interviews with Acquisition Agency Officials within Afghan AT&L as
well as their mentors, to obtain an understanding of the award process used for selecting
vendors to supply pharmaceuticals. For procurement, we only reviewed the award
process that the ANA used for selecting pharmaceutical supply vendors. Specifically, we
analyzed 2 of the 11 vendors bid packages and the procurement package for the 518 line
items in the contract awarded in September 2011, to determine whether vendors were
properly evaluated. We conducted a site visit and interviews with officials from Task
Force MED-East Craig Joint Theater Hospital Logistic and Pharmacy Command, 384th
Medical Logistics Command, Bagram, Afghanistan, to identify possible best practices
that could be applied to the Afghan pharmaceutical distribution process. We also
conducted site visits to six of the ten ANA locations: NSD, NMH, MeS Regional Military
Hospital Facility and FSD, and the Kandahar Regional Military Hospital and FSD. The
audit team selected the regional locations based on meetings with CSTC-A personnel.
Specifically, CSTC-A officials stated that the MeS locations demonstrated the most
progress in implementing the new distribution process and the Kandahar locations
demonstrated the least progress. We also selected both national facilities because the
NSD maintains all pharmaceuticals before distributing to any location and the NMH
provides care to the largest number of patients of all the ANA medical facilities. We
observed operations and interviewed mentors from the following CSTC-A organizations:
Command Surgeon, Medical Training Advisory Group, and Logistics Training Advisory
Group. We also interviewed and observed pharmaceutical operations by ANA personnel

                                           20 

from September 26, 2011, through January 15, 2012. At the site locations, we conducted
interviews with CSTC-A mentors and ANA personnel responsible for depot and medical
facility pharmaceutical and logistical operations. We observed operations at the depots
and medical facilities and compared them to written procedures.

We prepared flowcharts of the pharmaceutical logistical processes to identify potential
control weaknesses, variances, and instances of non-compliance. Further, we selected a
nonstatistical sample of at least 10 percent of the items on ANA inventory records for
pharmaceuticals maintained at each location. The following table lists the locations
visited, the number of pharmaceuticals maintained by that location, and the number of
pharmaceuticals selected for review.
         Table. Locations Visited and Pharmaceuticals Selected for Review
                Location Visited                   Number of                Number of
                                                 Pharmaceuticals          Pharmaceuticals
                                                   Maintained                Selected
        National Supply Depot                          170                      22
        National Military Hospital                     280                      281
        Kandahar Forward Supply                        200                      202
        Depot
        Kandahar Regional Hospital                         201                     22
        Mazar-e Sharif Forward                              83                     10
        Supply Depot
        Mazar-e Sharif Regional                             89                     10
        Hospital
           Total                                         1,023                     112
        1. We did not complete inventory testing at the NMH due to the staff’s inability to provide an
       accurate property record.
        2. We did not complete inventory testing at the Kandahar FSD because the depot personnel
       showed an inability to easily locate items selected.

We determined the accuracy of inventory records by comparing the selected items'
quantity in the inventory records to the quantity on hand (book to floor) and by non-
statistically selecting items on hand and comparing that quantity to the quantity contained
in the inventory records (floor to book). In addition, we obtained MoD Forms 1, 2, 4, 8,
9, 14, 56, and 59 from the depots and hospitals to compare accuracy and completeness of
the forms in accordance with stated requirements.

Use of Computer-Processed Data
At the time of the audit the ANA Pharmaceutical Logistics System was a paper-based
manual system. Computer-processed data was not used.




                                                  21 

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and the
Afghanistan Ministry of Defense Inspector General (MoD IG) in conjunction with the
Combined Joint Inspector General (CJIG) have issued two reports discussing the ANSF
health care system. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

DoD IG
SPO-2011-007, “Assessment of the U.S. Department of Defense Efforts to Develop an
Effective Medical Logistics System within the Afghan National Security Forces,”
June 14, 2011

MoD IG/CJIG
MoD IG/CJIG “Follow-up Inspection of the National Military Hospital,”
February 1, 2011




                                          22 

Appendix B. MoD Decree 4.0 Forms
    MoD Form 1, “Warehouse Receipts and Issues” is used to record all materiel
    that physically enters or departs warehouse storage based on data from the
    MoD Form 8 or MoD Form 9. This form provides an inventory check and
    indicates the balance physically on hand in the warehouse.
    MoD Form 2, “Stock Accounting Record” records increases and decreases to
    stocks on hand, assists in predicting necessary stock levels to satisfy demands,
    establishes the balance on hand, and records stock identification data for
    purposes of accountability, issue, and ordering.
    MoD Form 4, “Register of Supply Actions”  creates an individual Unique
    Document Number that describes and is associated with each materiel request
    submitted by a unit until the request is provided, issued, rejected, or cancelled.
    MoD Form 4 is reviewed on a monthly basis to determine requests for
    adjustments to the authorized stockage list.
    MoD Form 8, “Materiel Receiving Reports” is used to record the receipt of
    materiel from outside sources such as: contractors, manufacturers, foreign
    military sales, confiscated, and turn-in materiel.
    MoD Form 9, “Issue and Turn-in” is used to record support entries in the
    supply action registers. The form records data for the items that were issued
    from depots to supported units.
    MoD Form 14, “Request for Materiel” is the basic form used to request items
    and supplies within the ANA Logistics System.
    MoD Form 1298, “Due-Out Log” establishes a record of materiel/stocks owed
    to a supported unit.
    MoD Form 1299, “Due-In Log” is used to record the items not received when
    a MoD Form 14, stock replenishment request, is submitted.
    MoD Form 1687, “Delegation of Authority” allows the supported unit to
    request materiel via the MoD Form 14 and receive materiel via the MoD Form 9
    at the designated depot.




                                      23 

Appendix C. Medical Facilities and Depot
Pharmaceuticals Nonstatistical Sample
Discrepancies

                              Units in   Units in
           Line Item           Floor      Book      Underage
             Name             Record     Record       and
                                                    Overage

     Kandahar Regional Hospital
          Amoxicilline          10228     31000      20,722
           Morphine              1264      1592        328
        Hydryllin Syrup           76       105          29
            Negazole               54       77          23
           Ketamine               414      430          16
             Brufen                48       63          15
       Gravinate Liquid            24       26           2
            Ceporex               36        35          (1)
           Pracetamal            187       169         (18)
         Triamcinolone            65         0         (65)
          Gabapentin              365      240        (125)
             Fefolvit            1290      1150       (140)
       Chlordiozepoxide
                                 1480     1325       (155)
     Hydrochloride Capsule
          Norfloxacin            1400     1240       (160)
     Mazar-e-Sharif Regional Hospital
      Hydrochloraothizide        3200     4509       1309
            Lexotanil            3150     3254        104
           Vitamin C              456      489        33
         Stropetomacin           400       498         98
          Encephabol              193      239         46
       Sloshin Benzovial         1900     2000       (100)
       Morphine Sulfate          736      756         20




                                  24 

                             Units in   Units in    Underage
      Line Item               Floor      Book         and
        Name                 Record     Record      Overage

       Calpol                  146        157         11
     Tyopentel                  59         60          1
   Hadneza Pomad                93        92          (1)
National Military Hospital
       Ketamine               4575        4755        180
       Tramadol               1650        1700          50
    Insulin-Regular            274         280           6
      Mebendazol              1164        1100        (64)
      Amoxiclline             6900        6800       (100)
       Propofol               2014        1802       (212)
Kandahar FSD
     Pan-Amin                  51         692          641
   Hydrocortizone              200        300          100
        B-6                    837        560         (277)
     Paracetmol              175,950     83,400     (92,550)
                                        Could not
        Timzol                 100                  Unkown
                                        determine
Source: DoD OIG




                                 25 

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-
Afghanistan Comments




                   Click to add JPEG file




                                  26

                           Final Report 

                            Reference





                         Enclosure Omitted
                         Due to Length

Click to add JPEG file




               27

                           Final Report 

                            Reference





Click to add JPEG file




                         Enclosure Omitted
                         Due to Length




               28

                           Final Report 

                            Reference





                         Enclosure Omitted
Click to add JPEG file   Due to Length




               29

